<html>
<title> - GERMANY'S CHAIRMANSHIP OF THE OSCE: PRIORITIES AND CHALLENGES</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                  GERMANY'S CHAIRMANSHIP OF THE OSCE:


                       PRIORITIES AND CHALLENGES

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2016

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-2-2]
                             
                             
                             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                             
                             


                   Available via http://www.csce.gov
                   
                   
                   
                                 _________ 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
  99-386 PDF                   WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001            
     
     
     
     
     
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               

            HOUSE                                 SENATE

CHRISTOPHER H. SMITH, New Jersey,        ROGER F. WICKER, Mississippi, 
Chairman                                 Co-Chairman
ALCEE L. HASTINGS, Florida               BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama              JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                RICHARD BURR, North Carolina
STEVE COHEN, Tennessee                   JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                    TOM UDALL, New Mexico
RANDY HULTGREN, Illinois                 SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
New York

 
                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  


                  GERMANY'S CHAIRMANSHIP OF THE OSCE:
                       PRIORITIES AND CHALLENGES

                              ----------                               
March 1, 2016

                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     6
Hon. Roger Wicker, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     2
Hon. Joseph R. Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    11

                               WITNESSES

H.E. Frank-Walter Steinmeier, Minister of Foreign Affairs, 
  Federal Republic of Germany....................................     3

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    16
Prepared statement of Hon. Roger Wicker..........................    17
Prepared statement of H.E. Frank-Walter Steinmeier...............    18

                                 [iii]
                                 
                                 
                                 


                  GERMANY'S CHAIRMANSHIP OF THE OSCE:



                       PRIORITIES AND CHALLENGES

                              ----------                              


                             March 1, 2016

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2:15 p.m. in room 334, Cannon House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe; 
Hon. Roger Wicker, Co-Chairman, Commission on Security and 
Cooperation in Europe; Hon. Benjamin L. Cardin, Ranking Member, 
Commission on Security and Cooperation in Europe; and Hon. 
Joseph R. Pitts, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witness present:  H.E. Frank-Walter Steinmeier, Minister of 
Foreign Affairs, Federal Republic of Germany.

  HON. ROGER WICKER, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. All right. It goes without saying that the 
loudspeaker's working very well today, so I'll back up a bit.
    My name is Roger Wicker, and I'm co-chairman of the 
Helsinki Commission. Our chairman, Chris Smith, is casting a 
recorded vote on the House Floor now and will be along soon. He 
has asked that we go ahead and begin.
    And I'm joined today by my dear friend Ben Cardin, whose 
leadership at the Commission has been long capable. Ben, I 
don't know about you, but it's good to be back in the Cannon 
Building. It was my first office as a member of the House of 
Representatives, and I'm glad to be back.
    And I am pleased to join members of the panel in welcoming 
Foreign Minister Steinmeier before the Helsinki Commission. So 
welcome, sir. I appreciate having the foreign minister's views 
and expertise as the Commission works to formulate U.S. policy 
regarding the OSCE.
    For 40 years the OSCE has worked to bolster security, 
democracy, the rule of law and respect for human rights. In 
recent decades, Europe has faced major changes, crises and 
conflicts. These have included the fall of communism, the war 
in the former Yugoslavia and the war on international 
terrorism. In addition to the continued terrorism threat, OSCE 
today must contend with new and ongoing challenges such as the 
migration crisis, human trafficking, a resurgent anti-Semitism, 
protecting other minority groups, and corruption in government.
    As a 57-member organization that operates by consensus, the 
OSCE is also not without internal challenges. Russia has 
attempted to redefine European borders through force. It has 
tried to use the power of veto and the power of the purse to 
paralyze the OSCE's mission. These actions should be addressed 
in a meaningful way. There are also differing views among OSCE 
members on how to address the unprecedented migration of 
refugees into Europe.
    Mr. Foreign Minister, Germany's chairmanship of the OSCE 
comes at a critical time in history. I wish you every success, 
and I look forward to your insights and counsel on how we can 
make a better world for future generations throughout the OSCE 
region.
    Senator Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, Mr. Chairman, thank you very much.
    And, Mr. Foreign Minister, it's a pleasure to have you 
before the Helsinki Commission. I enjoyed our opportunity this 
morning to have a conversation on many of these issues.
    I think it is particularly important for OSCE that Germany 
has stepped forward to take on the chair-in-office. And we 
thank you personally, but we thank your country for being 
willing to share your time with the security of Europe, Central 
Asia and our own continent.
    I've been working with the Helsinki Commission now for 
three decades. One of my very first trips was to West Germany 
to visit with the leaders of West Germany to better understand 
the circumstances. I was able to go to West Berlin and take a 
helicopter tour and see the contested Wall, and see how it was 
dividing a country and dividing people; and then went through 
Checkpoint Charlie, harassed a little bit by the East Germans. 
And then into East Germany we went, talked to the people about 
their fears, recognizing in many respects it was through the 
Helsinki Commission, through the OSCE that we were their voices 
to stand up against the oppression of their government. I 
returned a little later when the Berlin Wall was coming down, 
and I actually have a photograph in my office with my hammer 
knocking down the Berlin Wall. It's one of the prize 
photographs in my office. And I've been back many times since 
to see a united Germany and see the strength.
    And I go through that because it points out that the OSCE 
principles work. It was the basic commitments within the OSCE 
that raised the issues and brought Germany back together. And 
it's so fitting that you today are the chair-in-office to help 
us deal with the challenges.
    I do want to acknowledge Spencer Oliver, who's here, the 
recently retired secretary-general of the OSCE Parliamentary 
Assembly. We take pride in the work of the OSCE Parliamentary 
Assembly. My friend Senator Wicker is one of the leaders in 
that parliamentary assembly and does an incredible job.
    I also want to acknowledge Andy Baker, Rabbi Baker, who's 
here, who's the special representative on anti-Semitism. I have 
the opportunity of being the OSCE Parliamentary Assembly's 
special representative on anti-Semitism, racism and 
intolerance.
    There's not a lack of challenges that you have coming in as 
chair-in-office. I've been working with ODIHR--he was here 
recently, Michael Link--on anti-Semitism. I have visited Paris 
and Copenhagen, the sites of dramatic anti-Semitic activities, 
and am working with the leaders of Europe or leadership, 
particularly in improving the programming within the schools on 
tolerance.
    We also had a chance to talk this morning about the issues 
of the migrants. And my task as special representative will 
also take on discrimination against the migrant communities. 
And I look forward to working with you. There's clearly great 
risk.
    On the Roma population, I would just urge you to continue 
our effort. As someone who has long encouraged Germany to 
address the genocide of Romas, I was deeply heartened by 
Chairman Merkel's participation in the 2012 unveiling of a 
memorial for the Roma and Sinti victims of National Socialism. 
I would just urge you to continue to involve the Roma issues as 
you move forward with your agenda this year, including the work 
of the OSCE, and include the Roma population as members of the 
OSCE mission. So I would just urge you to continue to do that.
    I also might point out we are working with discrimination 
against individuals of African descent. In our own country we 
have problems with discriminatory policing, which we're going 
to take on, but it's also a problem within Europe.
    You are not going to have a lack of challenges. We talked 
this morning about corruption generally, and specifically in 
Ukraine. Clearly, corruption erodes all the principles of the 
OSCE, and one in which we have to have special attention.
    I would also just lastly point out I think we have the 
traditional concerns of countries that have never really fully 
complied with the OSCE commitments, from Belarus to Tajikistan. 
But we have backslidings on some of our close allies--NATO 
allies such as Hungary and Poland--that we have to be concerned 
about.
    So clearly the threat of extremism and ISIL is front in our 
minds to protect our population, and I can assure you this 
Commission looks forward to working with you and look forward 
to your vision during this year.
    Mr. Wicker. Mr. Foreign Minister, it is our honor to 
recognize you for an opening statement.

  H.E. FRANK-WALTER STEINMEIER, MINISTER OF FOREIGN AFFAIRS, 
                  FEDERAL REPUBLIC OF GERMANY

    Mr. Steinmeier. Senator Wicker, Senator Cardin, many 
thanks, first of all, for inviting me and inviting us, the 
German delegation, and for your kind words in the beginning.
    Ladies and gentlemen, it's really a great honor for me to 
address you today as chairman-in-office of the Organization for 
Security and Cooperation in Europe. And it is a particular 
honor to do this as a German, because we Germans know how much 
we owe to this institution and to the CSCE process--looking 
back on the path to detente between East and West, the end of 
the Cold War, and finally the reunification of my country.
    The Helsinki Commission, created almost 40 years ago, was 
instrumental in that endeavor. My country will never forget the 
unequivocal support of your country. We will not forget the 
United States' steadfast commitment to regarding European 
security as inseparable from its own security. That was the 
decisive factor in ending the Cold War peacefully.
    However, our hopes that the end of the Cold War would 
herald an era of peace have not come true. The vision of the 
Charter of Paris, of a Europe whole and free, has not yet 
materialized. Yet again we find ourselves facing violent crises 
and conflicts, even on our own continent. Russian aggression in 
Ukraine has brought the devastation of war right back to the 
heart of Europe, violating central provisions of international 
law, the Helsinki Final Act, and the OSCE commitments.
    At the same time, violence has spiked in regions of the 
Middle East and Northern Africa. Terror, religious radicalism 
and regional rivalries have led to immeasurable human 
suffering.
    That is particularly true for Syria. I hope that the recent 
diplomatic initiative for a cessation of hostilities that is 
being tirelessly promoted by Secretary Kerry and others will 
bring the violence to a halt and pave the way for urgently 
needed political negotiations.
    The brutal conflicts in the Middle East have also reached 
the European continent. Hundreds of thousands of people have 
been forced to flee their homes and are seeking shelter in 
Europe, many of them in Germany.
    We live in turbulent times, ladies and gentlemen. I believe 
that, in the light of these enormous challenges, we should 
remember the crucial lessons we learned in overcoming the Cold 
War.
    The first lesson is simple, but critical: We are only 
strong if we stand together. Secretary Kerry just reminded us 
in Munich that the transatlantic community has faced numerous 
challenges before, but we stood together to overcome them. And 
we will continue do so--not only because there is only one 
common transatlantic security, but also because we are a 
community of shared values and of shared beliefs.
    Another lesson I see is this: We need to make the best 
possible use of our existing tools to help solve conflicts, and 
to promote peace and security. In fact, we must strengthen 
these instruments.
    The OSCE is one of these tools, a crucial one. With its 
unique and inclusive membership, its operational capacities and 
established formats for dialogue, it is a central pillar of our 
common security. To me, strengthening the OSCE and using its 
full potential as a platform for dialogue is imperative, 
particularly in these challenging times, with trust at a low 
ebb.
    This is why, ladies and gentlemen, ``renewing dialogue, 
rebuilding trust, restoring security'' is the motto we have 
chosen for our OSCE chairmanship in 2016. The dialogue we want 
to renew is not one that sugarcoats our differences, nor is it 
dialogue for its own sake. It is dialogue to engage one another 
substantively, to face our differences, and to really effect 
change.
    In the conflict in and around Ukraine, we have condemned 
Russian violations of international law and of OSCE principles 
and commitments, and we have exerted political and economic 
pressure in response. At the same time, however, we have 
established formats for dialogue to avoid further bloodshed and 
to help find a political solution.
    I agree with many of you that the results of this--the 
Minsk agreements--are far from being perfect. We are still 
awaiting the complete implementation of their provisions by all 
sides. But I remain convinced that the Minsk agreements are 
still the best chance we have to overcome this conflict, and 
the OSCE has been instrumental in bringing that chance about.
    Senators, ladies and gentlemen, in the midst of the Cold 
War in the 1970s, in the face of the real danger of military 
confrontation between East and West, we put special emphasis on 
the implementation of human rights standards in the whole Euro-
Atlantic area. It is my firm conviction that safeguarding human 
rights and fundamental freedoms is a crucial and direct 
contribution to a more stable international system and to 
comprehensive security. That is why we will place a special 
focus on the human dimension during our OSCE chairmanship. I 
would like to name just a few of our priorities.
    Freedom of the media is of particular importance to us. Our 
societies should be able to communicate freely and without 
interference from state propaganda.
    We also need to intensify our fight against discrimination, 
racism, xenophobia and intolerance. We need to address it 
throughout Europe, including in my own country. In Germany, 
people's overwhelming readiness to help arriving refugees has 
recently been overshadowed by xenophobic assaults and 
demonstrations. These are despicable acts that we must not and 
will not tolerate.
    We will also place a special focus on combating anti-
Semitism. I have reappointed Rabbi Andrew Baker as my personal 
representative on combating anti-Semitism, and thank him for 
his valuable work in this regard. We will support the work of 
the Office for Democratic Institutions and Human Rights, ODIHR. 
And we will also host a number of events in Berlin on combating 
anti-Semitism, building on the OSCE conferences of 2004 and 
2014.
    Another emphasis will be on gender equality, as well as on 
dialogue with civil society.
    And finally, the pressing issue of migration should figure 
more prominently and comprehensively on the OSCE's agenda. 
There is a lot of expertise that the OSCE can bring to the 
table on human rights standards, on best practices in labor 
migration, and on combating human trafficking. We support the 
efforts of the Special Representative for Combating Trafficking 
in Human Beings.
    Ladies and gentlemen, despite all the differences in the 
OSCE area, we have to work on real solutions to the crises and 
challenges we face in these turbulent times. In the long term, 
we will need to return to a broader dialogue on European 
security, and we should adhere to the vision of renewed arms 
control and more cooperative security in Europe. The OSCE 
provides a platform for such dialogue, and we should make use 
of it.
    Ladies and gentlemen, the OSCE is a unique organization. 
But my hope is that its principles can provide a glimmer of 
hope to other regions, particularly to the Middle East. Let us 
remember that the road to Helsinki began when the Cold War was 
at its coldest. At the start of the negotiations, who would 
have dared to hope that at the end of it the Berlin Wall would 
fall?
    Of course, you can't transfer a security architecture to 
another region, but perhaps our experiences can highlight 
useful principles and processes. And maybe they can encourage 
the parties in the Middle East to live up to their 
responsibility and explore new paths to political settlements. 
This is a discussion that we started at the OSCE conference in 
Jordan last year, and which we would like to build on.
    Ladies and gentlemen, in 1977, Ambassador Arthur Goldberg, 
chairman of the U.S. delegation at the CSCE follow-up meeting 
in Belgrade, held that, and I quote, ``A healing of the 
divisions in Europe cannot be divorced from progress in 
humanitarian matters and human rights. The pursuit of human 
rights does not put detente in jeopardy. Rather, it can 
strengthen detente and provide a firmer basis for both security 
and cooperation.''
    It is in this spirit that we will pursue our chairmanship, 
and hope to make a contribution to peace and stability in the 
OSCE area in 2016. Of course, rebuilding trust will not be 
easy, and there will not be a quick fix in 2016. But in my 
view, we have no alternative but to make every effort to do so 
if we want to be able to look future generations in the eye and 
hold that we did everything possible to return to peace in 
Europe.
    Many thanks.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Mr. Foreign Minister, thank you so very much. 
Luckily, I read your statement in advance--[laughter]--so I 
apologize on behalf of myself and my House colleagues that we 
couldn't be here to hear you in person, but I, and my of course 
Senate colleagues, deeply appreciate not only you being here, 
but for your leadership. Germany certainly is in an ideal 
situation at one of the most critical times in the OSCE 
history, where not only the migration crisis, but obviously the 
ongoing problems with Ukraine, Nagorno-Karabakh and other so-
called frozen conflicts--I mean, the world is a powder keg, and 
we're grateful that we have a very steady hand at the helm as 
chair-in-office. So I want to thank you.
    I do have some opening questions, and then of course go to 
our two distinguished senators for any questions they have. 
And, without objection, I would ask unanimous consent that my 
statement be made a part of the record; opening statements 
can't be made after--[chuckles]--you're well into the hearing.
    So I would ask you first of all, if I could, maybe to shed 
some light on this--and perhaps you did, in addition to your 
opening comments--but last November, via a vote of 418 to zero, 
the House passed a resolution that I had introduced. It was co-
signed by Democrats and Republicans alike, a very robust effort 
to say to our European friends that the security services of 
all of our countries--in our case, Homeland Security and local 
police, state police--need to more effectively partner with the 
Jewish communities in each of our respective countries, right 
down to the level of the synagogue and the Jewish community 
center, to provide very tangible assistance--financial, 
surveillance--partnering, you know, in every way to prevent, 
hopefully, acts of anti-Semitic hate, but also when they do 
happen to have a very quick mechanism in place to correctly 
identify it for what it is and to go after the perpetrators of 
those crimes to hold them to account, so that there is no sense 
of impunity anywhere in the OSCE space. We called it the Safety 
and Security of Jewish Communities in Europe Resolution.
    We do work, as you know, very closely with Rabbi Andy 
Baker, who thankfully you continue to keep as the personal 
representative in combating anti-Semitism. And, of course, Ben 
Cardin is the Parliamentary Assembly's Special Representative 
for combating anti-Semitism. And I just would ask if you could 
speak to any plans that you might have with regards to really 
trying to get countries--I know the U.K. does it very well; I 
hope and believe that Germany does it as well--to make sure 
that that kind of law enforcement expertise is robustly brought 
to bear.
    Secondly, if I could, child exploitation is an interest of 
all three of us and other members of the Commission. We've 
worked very hard on combating human trafficking. And we know 
that with this huge, huge refugee flow making its way into 
Europe, that the traffickers are preying on women especially. 
One estimate was that there were 10,000 unaccompanied minors, 
and the number may be higher--it was a guesstimate. And I'm 
wondering if you could speak to, you know, at the Border 
Security and Management Conference in Berlin, will you focus on 
making sure that these children and at-risk persons, especially 
women, are protected from predators? We did pass legislation, 
and President Obama signed, a bill called the International 
Megan's Law, which we're hoping you will take a look at and see 
if it might become part of your efforts. It is a noticing 
provision so that countries of destination, when there's a 
convicted pedophile, that country--whether it be Germany or the 
United States--we're hoping will be told when those folks are 
coming here so that we could either watch them or even perhaps 
deny them entry into the country, because we know child sex 
tourism is exponentially rising globally, including in the OSCE 
area.
    First two questions, if I could, and, please, any insights 
you can provide.
    Mr. Steinmeier. Yes, I was just mentioning in my opening 
remarks that there are some reasons to take care about the 
situation of human rights, and unfortunately not only beyond 
our borders but also with regard to the situation in Germany. I 
think Rabbi Baker will witness the situation in Germany very 
carefully, and so far I think we were quite successful in our 
fight against anti-Semitism and every kind of populist racism.
    There were some events two years ago, and so therefore we 
indeed renewed our engagement in the fight against anti-
Semitism. And now, being chairman of the OSCE, we have decided 
to organize a meeting in June with special envoys on combating 
anti-
Semitism. I think official institution will be part of that, 
hopefully also police and servicemen from all around Europe. 
And we will support a big ODIHR project to address anti-
Semitism, focusing on security needs of Jewish communities, 
education, civil society, coalition-building and so on. So what 
I want to say is Jewish security of the--security of the Jewish 
communities will be actively followed up by our German 
chairmanship.
    On children's rights--children's rights, and this will be 
part of our planned agenda. We will organize a special workshop 
about the children's right, very important indicator for the 
implementation of human rights because they are--that is our 
view--the children are the most vulnerable group. So therefore, 
we have to take care that especially children will not be 
harmed in new developments in and outside the OSCE countries.
    This is, you know, already the link with the third issue 
you were raising--this is human trafficking. And trafficking of 
human beings is certainly an important topic in the OSCE, not 
only since we were overtaking the chairmanship also in the 
Swiss chairmanship, I remember. We will host a special 
conference in Berlin beginning in September 2016 on preventing 
trafficking in human beings for labor exploitation in supply 
chains, and the OSCE Special Representative and Coordinator for 
Combating Trafficking in Human Beings has already been invited 
to the next alliance against trafficking in persons. So 
therefore, I think we are well-prepared to highlight this as 
one of the priorities during our chairmanship in the OSCE.
    Mr. Smith. Thank you.
    Commissioner Cardin.
    Mr. Cardin. Well, again, thank you, Mr. Minister.
    I want to ask you a question about the nuts and bolts of 
the OSCE. In my role on the Foreign Relations Committee, I have 
the opportunity of working with the OSCE, with the Organization 
of American States, ASEAN, African Union, a lot of the regional 
organizations. And I think OSCE has been a real leader on the 
effectiveness of a regional organization. As we talked this 
morning, just looking at the role of OSCE in Ukraine and its 
mission points out its valuable role. Its field missions have 
been incredibly important. It's been able to be very effective 
in changing the way of life in so many of the OSCE states.
    But it does work on consensus, which can be very 
challenging at times. The charter and operations are now many 
decades old. And I'm just interested, under your chairmanship, 
as to whether there are ways that we can make the organization 
more effective and more efficient in responding to the 
challenges that we face today.
    I'd mention also, if I might, the budgetary issues. You 
shouldn't have to go with tin cup in hand to try to get money 
for special missions. There should be a more predictable way to 
finance the operations of the OSCE.
    Mr. Steinmeier. Starting with the budget, I think the 
budget is far too limited because, you know, the challenges and 
the tasks for the OSCE are increasing. So, therefore, what we 
need is some more flexibility in our budget. But I will not 
complain because for the first time since years we have an 
agreed budget before the beginning of our chairmanship, and 
that is really a sort of luxury because, you know--[chuckles]--
the chairman-in-office during the last years were fighting 
during their chairmanship for the budget. This is done already, 
so therefore we are now in the beginning of our chairmanship in 
a better situation compared with former days.
    But you're right, the OSCE is a very--how should I put it--
very traditional, one of the biggest regional organizations. 
But to be honest, three years ago, five years ago, it was 
nearly a forgotten institution. It was, you know, we had our 
celebrations, but nobody was really aware that we are in need 
of such a regional organization. That has changed since the 
beginning of the conflict in and around Ukraine.
    It was very clear that the OSCE was the only institution in 
which East and West were still present. So therefore, it was 
the only platform for a dialogue. And you will remember, it was 
hard in the beginning to start a dialogue about Ukraine 
because, you know, every side felt justified about what they 
were doing. The Russians were trying to find arguments why 
Crimea was forever part of the--of Russia, belonging to Russia. 
And the Ukrainians were very clearly saying there is no need to 
talk and to have dialogue with the aggressor.
    So I think, without OSCE, we would never have been 
successful to start this dialogue, which was leading to Minsk, 
and from Minsk to the establishment of the OSCE observer 
mission. Since then, we are still far away from a political 
solution, but there is a significant de-escalation of the 
conflict, which is, from the point of the view of the people 
who are living in the eastern Ukraine, a real progress.
    So a lot has to be done now. And we are just inviting--not 
in the OSCE format but in the so-called Normandy format 
together with France--we are inviting the foreign ministers of 
Ukraine and Russia to Paris on Thursday of this week. And we 
are now discussing the next steps. In the sequence of the Minsk 
agreement, the next which has to be done is now an agreement 
about a new election law which is, you know, able to organize 
elections in the east of Ukraine, creating new legitimacy. And 
there are still bigger gaps to bridge. And that is what we are 
trying to do, accompanied by additional attempts to calm the 
situation and to keep the security situation on the ground in 
the eastern Ukraine more stable as it is.
    So therefore, I think we learn--we all learned in Europe 
that the OSCE is a still a needed organization. And my hope--my 
personal hope is that this is an additional argument why we 
have to modernize this organization a little bit. We have asked 
Ambassador Ischinger, who is chairing the Munich Security 
Conference with a group of experts, to give us some advice for 
the modernization of the institution. And I'm just talking with 
some of my colleagues yesterday evening, with Secretary Kerry, 
about new formats inside the OSCE that we should have--that is 
my idea--that we should have the opportunity to talk sometimes 
in a more informal way.
    And you know the procedures inside OSCE when 57 members are 
sitting around the table and reading their notes. This is not 
the discussion we are needing in difficult times. So opening 
the discussion in perhaps a more informal format, that is what 
we have--what we want to try to do during this year in our 
chairmanship. I don't know if there is support from a relevant 
number of member states of the OSCE, but we are trying to 
convince, first of all, some of the bigger member states, and 
then hopefully others will follow.
    Mr. Cardin. Thank you. Thank you.
    Mr. Smith. Thank the ranking member.
    Chairman Wicker.
    Mr. Wicker. Thank you, Mr. Chairman.
    And thank you, Mr. Minister, for your opening statement, 
your testimony so far.
    You know, with all that is going on, I think it is 
important that you put the 40-year history of OSCE in 
perspective. In 1976, I don't know that I ever expected the 
people of Poland or Czechoslovakia or I could name any other 
country, to have free elections, or to have the level of 
independence that they have. And it was--actually, it was a 
decade and a half before that came to fruition. But the fact 
that you would mention the historical context of the entire 40 
years gives me hope that things will improve.
    Also, with regard to what Mr. Cardin said as to the nuts 
and bolts and tools, I appreciate your thinking this through. I 
can tell you, at the Parliamentary Assembly level, we are also 
talking about a different approach to basically all we have. 
And that is dialogue. We need to think of a better way to have 
dialogue. We need to think of a better way to have consensus 
building and to mobilize international opinion through the 
power of words. We don't have policemen to send in. We don't 
have judges to go in and do injunctions. And we certainly don't 
have an army, nor would I want it to be. What we have is the 
opportunity for better dialogue and to better use the power of 
words.
    Now, Chairman Smith and I have mentioned a number of issues 
in which it seems that we're backsliding in the OSCE region. So 
give me your opinion--and let's be honest here, we're on the 
record and the TV cameras are here--it seems to me that with 
regard to corruption, we are backsliding in the OSCE. It seems 
that with regard to anti-Semitism there is not only a lack of 
progress, we are heading the other way. And you know, to that I 
would add other minority groups. I don't know that we're 
progressing in the area of human trafficking. So let's talk 
honestly about that. Let me get your opinion and let's get it 
on the record. And if we are backsliding in one or all of these 
areas, help us identify the reason why that situation is headed 
in the wrong direction.
    Mr. Steinmeier. Thank you. Only a few remarks to your first 
issue about history of the OSCE. My impression now, at the 
beginning of my chairmanship, is sometimes when I'm discussing 
OSCE issues with the German public that history might be, you 
know, looking to the younger generation, a sort of obstacle, 
because from the point of view of the younger generation, the 
OSCE is in a certain way linked to the times of the Cold War. 
And they are not really aware that issues like human 
trafficking, anti-
Semitism, corruption are higher now on our agenda.
    So when you are asking are we backsliding, I think on the 
surface that might be. But you know, this depends a little bit 
from our effort, or let's say from our success, in dealing with 
different crises around Europe. I think--and returning from 
Ukraine last week--you know, many people in Ukraine are 
completely aware that the fight against corruption in their own 
country is the fight for democracy. And the main question is if 
Ukrainians will be able, and if we will be able to support, 
those who are really engaged in this, if we are able to create 
conditions that the fight against corruption will be 
successful.
    I met a number of members of the parliament and so-called 
reformists in the Cabinet who are really engaged and determined 
to fight against corruption. And I hope that we will, and the 
Ukrainians will, create conditions that their fight will be 
successful. But you're right, corruption is not only an issue 
in Ukraine. We are observing that in greater parts of Asia, 
especially in some of the Central Asian states. And I think we 
must be clear with the OSCE, and we will be clear during our 
chairmanship, we will not allow backsliding in all the three 
issues you were mentioning--
corruption, anti-Semitism, human trafficking.
    But human trafficking is also linked to the conflicts in 
the Middle East. And so therefore talking about migration or 
human trafficking, I think we have the political and moral 
obligation to try what we can in combination with all the 
regional actors to find solutions for crises and conflicts 
which are the cause, which are the source for migration and 
human trafficking. And regarding especially the biggest crisis 
in the Middle East, Syria, I'm far from being optimistic that 
after five years of civil war, 250,000 victims, for the first 
time there is perhaps a glimmer of hope that we are 
progressing.
    Mr. Wicker. Do you agree with me that we are backsliding 
when it comes to anti-Semitism?
    Mr. Steinmeier. Looking to Europe, you're right. We have, 
and also in Germany, we're making the experience that populist 
parties, some of them with a portion of anti-Semitism in their 
programs, that they are becoming more influence in our 
societies. I think this cannot only be the obligation and the 
task of the OSCE to fight these new tendencies. This is also an 
obligation of national governments and civil society. So far, 
talking about Germany, I'm quite happy that a lot of people are 
really standing up against these new kinds of populism. And 
hopefully they will not have the expected success in the 
parliamentary elections.
    Mr. Smith. Thank you, Chairman Wicker.
    Commissioner Joe Pitts.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman.
    Welcome, Mr. Minister, and thank you for your testimony.
    Let me ask you about Moldova. If you have one from your 
government's new perspective as chair, can you offer us an 
update on the five-plus-two negotiations with the Russian 
Federation? Specifically, has there been any update on the 
Federation's making good on its past promise to withdraw 
Russian ammunition and military forces from the Transnistria 
region within the Republic of Moldova?
    Mr. Steinmeier. Yes. These are different aspects. And I'm 
afraid for the time being I have not very much encouraging 
signals to give. First of all, regarding the domestic situation 
in Moldova, there is a sort of still-stand, as you know. A new 
government is created and we have to wait if this new 
government will have the needed support from the parliament, 
and if this new government is really following the path of 
former government, meaning a course of reforms including the 
fight against corruption. There was some skepticism, as you 
know, during the last weeks and few months.
    On Transnistria, I have announced publicly that we will 
make a new effort. I don't see any kind of progress on solving 
these old--very old, frozen conflicts. And we will use all the 
instruments inside and outside the OSCE to bridge the gaps, or 
some of the gaps. But being honest, I think there is, for the 
time being, not really justified optimism.
    Mr. Smith. Thank you very much, Mr. Pitts.
    Let me ask a few final questions. And again, Mr. Foreign 
Minister, if you have any questions you have of us, you know, 
this is a dialogue, we would appreciate those questions as 
well. Let me--you know, Chairman Wicker mentioned the 
backsliding and anti-Semitism. And the empirical data clearly 
shows it's getting worse. In the United States it has gotten 
worse, the last years for which we have statistics. Despite the 
fact that men and women who happen to be Jewish comprise 1.9 
percent of our population, 57 percent of anti-religious hate 
crimes that were motivated by an offender's anti-Jewish bias 
were committed against Jews.
    And the comparison between Muslims and Christians pale in 
terms of the numbers. And yet Jews comprise about 1.9 percent 
of our population. And the Kantor Institute shows very similar 
numbers happening all over Europe, including Germany, France, 
the U.K. Italy has seen almost a doubling of the number of hate 
crimes year over year. So it's a very, very troubling trend. So 
all the more reason why your leadership on this--you know, it 
was in this room more than a dozen years ago, almost 15 years 
ago to be exact, that Gert Weisskirchen and I agreed to a--and 
our Commission--but we did it right here, right where we sit 
right now, to a coalition of the willing within the 
Parliamentary Assembly to try to get other parliamentarians to 
take up this cause.
    And I have to tell you, it was a hard fight. Many people 
wanted to just immediately make it include everything. And 
everything does have to be included, but anti-Semitic hate, as 
we all know, is of a very special form of virulent bias that 
continues year over year.
    Mr. Steinmeier. But your--if I may say, your common efforts 
had some outcome, some result, because I remember you and Gert 
Weisskirchen, you were initiating the first anti-Semitism 
conferences. And we are now organizing the third one, I think.
    Mr. Smith. And I can't tell you how grateful we are for 
that and, again, for the work that Rabbi Andy Baker does. So 
but I think all of us have to--including here in the United 
States--we have a problem in our universities, where there's a 
growing bias against Jewish people, Jewish students. So there 
needs to be, I think, a redoubling of all of our efforts.
    Let me ask you, with regards to the trafficking issue, when 
we met with the chair-in-office from Ukraine, we asked him as a 
commission if he would convene a conference that would look at 
the overall issue, which you are doing, but also at very 
specific parts of it, including the use of the airlines to 
carry victims from one location to another. And many of our 
airlines, as you know, Delta Airlines and others, have done a 
situational awareness program. It's been incorporated into 
what's called Blue Lightning that Homeland Security 
promulgates.
    A woman named Nancy Rivard, with the Airline Ambassadors 
International, came up with one of the best, simplest ways of 
being situationally aware on a flight, conveying information of 
a suspected trafficking in progress to the pilot, who tells law 
enforcement so when the travelers disembark, law enforcement, 
not the pilot, not the flight attendants, can ascertain whether 
or not there's a trafficking situation. And many, many women 
have been saved, rings have been broken up. And I would ask--
you know, we're trying to get all of our airlines to do it. 
They haven't all. It would be great if Lufthansa and all the 
other European carriers would consider it. But if you could 
look at, perhaps, including that in your conference as a 
workshop?
    And the other would be, if I could, with all due respect, 
the whole of sex tourism for children. We know child sex 
predators have a huge propensity to recommit those crimes. The 
recidivism rate--and that's just for those who get caught--
approximates about a third, depending on the study you look at. 
So for every one who gets caught, how many go undetected 
because of the secrecy of the travel? Our new international 
Megan's Law, which is named after a little girl from my 
district, my hometown, named Megan Kanka, who was--lived across 
the street from a convicted pedophile, nobody knew, he lured 
her into the house, slaughtered her, raped her, and buried her 
in a local park. That led to all 50 states enacting Megan's 
Law.
    We now have a very serious, well-vetted database of sex 
offenders, including child sex offenders. And our new 
international Megan's Law will systematize the noticing of 
every country in the world when these individuals travel. And 
then it's up to Germany to say: We will deny entry--I know we 
have visa waiver and all of that--but we'll deny--you'll have 
the actionable information in a timely fashion. I think it's 
something--we've gotten Parliamentary Assembly resolutions 
passed asking that states look at international Megan's Law, as 
well as its core, of Megan's Law itself. And I would beseech 
you to take a look at that yourself. It can provide you with 
all kinds of data, because it is an idea whose time has come.
    Mr. Steinmeier. Yes. Thank you for this information. I 
promise you that we will integrate that in the preparation of 
our conference.
    And I have no question to you, but I want you to invite you 
to Germany, to these conferences, or wherever they will take 
place, so that you can directly influence the discussion during 
these conferences. So I hope to see you.
    Mr. Smith. That would be an honor. Thank you. And for my 
colleagues, all of us, we would make every effort to be there.
    Mr. Pitts. Mr. Chairman, let me just add a little bit on 
what you've said. The Airline Ambassador Program, the staff on 
the plane is trained to recognize or spot characteristics of 
traffic victims. They do not intervene. They have a hotline 
number which they call. And they're met when they get on the 
ground. And the proper authorities then intervene, take the 
people out of the queue and intervene. So they're really 
serving as eyes and ears and alerts with their training, the 
airlines. So if you could help facilitate training like that 
with the airlines, that would be very good.
    Mr. Smith. And it's low-cost and highly efficacious. If I 
could, Mr. Foreign Minister, you know, Chairman Wicker led us 
to a Parliamentary Assembly in Baku. And we had a very lively, 
I can tell you, exchange between President Aliyev and our 
delegation. We've been there twice as a commission. And we've 
noticed, with alarm, as I know you have and I know many in the 
European Union have, that Azerbaijan has now put behind bars 
something on the order of 100 political prisoners. People in 
opposition now are incarcerated.
    And one of those journalists, Khadija Ismayilova, a woman 
who we met with or interviewed by for Radio Free Europe. And 
now she has a seven-and-a-half-year prison sentence for 
exposing the excesses and, frankly, the corruption of the 
Aliyev regime. My hope is that--I mean, I've introduced a bill 
called the Azerbaijan Democracy Act. And it has a number of 
things, like we did with the Belarus Democracy Act years ago, 
targets individuals for denial of visas based on complicity in 
crimes. And I'm wondering if you will, you know, use your good 
offices to press the government to release this woman and the 
others who have been unfairly incarcerated.
    Mr. Steinmeier. Yes. Not only that, I met the President 
Aliyev during the Munich Security Conference. I have already 
announced my visit in Azerbaijan. And to be sure, we will urge 
Azerbaijan to respect the freedom of media. And we are talking 
about individuals. And therefore, we are taking care about 
those people who are prosecuted, who are sitting 30 years in 
prison. And I hope that we will find a solution to one or the 
other case.
    Mr. Smith. I would just point out that when we heard a 
hearing on Khadija, it was incredible to me how the Azerbaijani 
government, including their parliament, so grossly overreacted 
and suggested absolutely wrongly--and I want this on the record 
for everyone--that I, we, were put up to it by the Armenians. 
They claimed that the Armenian lobby had written the 
resolution. They didn't even know about it until after it was 
introduced. It was all about, as you pointed out, protecting 
journalists and political prisoners, so--
    Mr. Steinmeier. We have completely similar experiences.
    Mr. Smith. I know. I'm sure you do.
    Mr. Steinmeier. Thank you.
    Mr. Smith. Thank you so much. And I'm done.
    Mr. Wicker. Thank you, sir.
    Mr. Smith. Thank you. [Whereupon, at 3:10 p.m., the hearing 
was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good afternoon and welcome to everyone joining us today--especially 
to His Excellency Foreign Minister Frank-Walter Steinmeier.
    With the ongoing Russian invasion of Ukraine and the refugees from 
Syria and nearby countries entering the OSCE region--as well as the 
security threats the Syrian conflict is generating--I think it is safe 
to say this will be a challenging year for the OSCE. We are grateful 
that Germany has shouldered the responsibility to lead the OSCE at this 
critical time.
    Through its influence and the respect it has earned from all sides 
among OSCE nations, Germany is ideally suited to lead the organization.
    Never in the OSCE's history has its relevance been so clearly 
necessary. Russia's latest and most egregious attempts to change 
borders by force and expand its territory continue to reverberate 
across all three dimensions of the OSCE in direct defiance of all ten 
principles of the Helsinki Final Act.
    That the OSCE is a consensus organization does not make it 
powerless in the face of a Russian veto. Even as Russia walks away from 
its OSCE commitments, undermines Europe's longstanding security 
architecture, it is still able to bear witness--to speak truth to 
power--and to convene and encourage negotiations.
    The Chair-in-Office can persistently declare that Russia's illegal 
annexation of Crimea will never be recognized by the international 
community; that its flimsy denials of military intervention in Donbass 
and Luhansk are fooling no one; that that even at home, imprisoning 
voices of dissent will not silence them; and that the outsourcing 
threats and attacks on those who would exercise rights Russia itself 
recognized some forty years ago in no way absolves it of accountability 
for the consequences.
    We hope and fully expect that the Chair-in-Office will do this--and 
we will give our full support. I'm confident that our government will 
continue to do so, and certainly my Co-Chairman, Sen. Roger Wicker, and 
I, and our fellow Commissioners will do everything in our means to 
support you as well.
    Your Excellency, I look forward to a conversation with you today on 
your plans for your Chairmanship. As you know, a number of us will also 
raise issues that we work on in the OSCE. I have spent much of my 
career, both within Congress and the OSCE PA, in support of human 
rights, including the fight against trafficking and anti-Semitism. You 
may be aware that I offered the first OSCE PA resolution on fighting 
human trafficking in 1999 in St. Petersburg, and the first resolution 
on fighting anti-Semitism in 2002.
    We are glad to see that these issues are high on your 
Chairmanship's agenda as well. Unfortunately, despite our collective 
best efforts, these problems have not gone away, and may be getting 
worse.
    One of the other issues I'll be raising is prisoners of conscience 
held by OSCE countries.
    I'd like to take this opportunity to announce that the Commission 
will soon post a list of prisoners of conscience held by various OSCE 
participating states--this list will be very carefully vetted, and we 
will advocate systematically on behalf of the people who are on it, in 
keeping with the Commission's mandate.
    This list will be in response to a disturbing trend among a certain 
states that find it easier to imprison dissenting voices rather than 
engage in dialogue with them. After 1990 the situation with prisoners 
of conscience dramatically improved in the OSCE--the reversal in the 
past several years is deeply disturbing. I hope that the German 
Chairmanship will be able to make the release of political prisoners a 
priority as well.
    I'd like to make a specific appeal on behalf of Khadija Ismayilova, 
a prisoner of conscience in Azerbaijan. Khadija is an Azeri, and worked 
as an investigative reporter for Radio Free Europe. She did outstanding 
work exposing the corruption of the Aliyev family and for her work she 
was sentenced to 7.5 years in prison. In December of last year I 
chaired a hearing on her case and the repression in Azerbaijan more 
broadly. I'd ask you to make her release, and the release of other 
Azeri prisoners of conscience, a priority.
    If you make a visit to Azerbaijan, please request to meet with her 
personally. Azerbaijan has over 100 prisoners of conscience, and Russia 
has a similar number.
    Thank you, Your Excellency, for speaking to the Commission this 
afternoon.

  Prepared Statement of Hon. Roger Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    Thank you, Chairman Smith. I join you in welcoming His Excellency 
Foreign Minister Frank-Walter Steinmeier before the Helsinki 
Commission. I appreciate having the Foreign Minister's views and 
expertise as the Commission works to formulate U.S. policy regarding 
the Organization for Security and Cooperation in Europe (OSCE).
    For 40 years, the OSCE has worked to bolster security, democracy, 
the rule of law, and respect for human rights. In recent decades, 
Europe has faced major changes, crises, and conflicts. These have 
included the fall of communism, the war in the former Yugoslavia, and 
the war on international terrorism. In addition to the continued 
terrorism threat, OSCE today must contend with new and ongoing 
challenges, such as the migration crisis, human trafficking, a 
resurgent anti-Semitism, protecting other minority groups, and 
corruption in government.
    As a 57-member organization that operates by consensus, the OSCE is 
also not without internal challenges. Russia has attempted to redefine 
European borders through force. It has tried to use the power of veto 
and the power of the purse to paralyze the OSCE's mission. These brazen 
actions should be addressed in a meaningful way. There are also 
differing views among OSCE members on how to address the unprecedented 
migration of refugees into Europe.
    Mr. Foreign Minister, Germany's chairmanship of the OSCE comes at a 
critical time in history. I wish you every success, and I look forward 
to your insights and counsel on how we can make a better world for 
future generations throughout the OSCE region.
    Thank you.

           Prepared Statement of H.E. Frank-Walter Steinmeier

    Chairman Smith, Co-Chairman Wicker, Distinguished members of the 
Helsinki Commission, Ladies and gentlemen,
    It is a great honor for me to address you today as Chairman-in-
Office of the Organization for Security and Cooperation in Europe.
    And it is a particular honor to do this as a German, because we 
Germans know how much we owe to this institution and to the CSCE 
process--looking back on the path to detente between East and West, the 
end of the Cold War and finally the reunification of my country.
    The Helsinki Commission, created almost forty years ago, was 
instrumental in that endeavor.
    My country will never forget the unequivocal support of your 
country, ladies and gentlemen! We will not forget the United States' 
steadfast commitment to regarding European security as inseparable from 
its own security. That was the decisive factor in ending the Cold War 
peacefully!
    However, our hopes that the end of the Cold War would herald an era 
of peace have not come true. The vision of the Charter of Paris, of a 
Europe ``whole and free'', has not yet materialized.
    Yet again we find ourselves facing violent crises and conflicts--
even on our own continent. Russian aggression in Ukraine has brought 
the devastation of war right back to the heart of Europe--violating 
central provisions of international law, the Helsinki Final Act and 
OSCE commitments.
    At the same time, violence has spiked in regions of the Middle East 
and Northern Africa. Terror, religious radicalism and regional 
rivalries have led to immeasurable human suffering.
    That is particularly true for Syria. I hope that the recent 
diplomatic initiative for a cessation of hostilities--that is being 
tirelessly promoted by Secretary Kerry and others--will bring the 
violence to a halt and pave the way for urgently needed political 
negotiations.
    The brutal conflicts in the Middle East have also reached the 
European continent. Hundreds of thousands of people have been forced to 
flee their homes and are seeking shelter in Europe--many of them in 
Germany.

    We live in turbulent times, ladies and gentlemen. I believe that in 
the light of these enormous challenges, we should remember the crucial 
lessons we learned in overcoming the Cold War.
    The first lesson is simple but critical: we are only strong if we 
stand together. Secretary Kerry just reminded us in Munich that the 
transatlantic community has faced numerous challenges before. But we 
stood together to overcome them, and we will continue do so--not only 
because there is only one common transatlantic security, but also 
because we are a community of shared values and of shared beliefs.
    Another lesson I see is this: we need to make the best possible use 
of our existing tools to help solve conflicts and to promote peace and 
security. In fact, we must strengthen these instruments!
    The OSCE is one of these tools--a crucial one. With its unique and 
inclusive membership, its operational capacities and its established 
formats for dialogue, it is a central pillar of our common security.
    To me, strengthening the OSCE and using its full potential as a 
platform for dialogue is imperative - particularly in these challenging 
times, with trust at a low ebb.
    This is why ``renewing dialogue, rebuilding trust, restoring 
security'' is the motto we have chosen for our OSCE Chairmanship in 
2016.
    The dialogue we want to renew is not one that sugarcoats our 
differences, nor is it dialogue for its own sake--it is dialogue to 
engage one another substantively, to face our differences and to really 
effect change.
    In the conflict in and around Ukraine, we have condemned Russian 
violations of international law and of OSCE principles and commitments, 
and we have exerted political and economic pressure in response.
    At the same time, however, we have established formats for 
dialogue--to avoid further bloodshed and to help find a political 
solution. I agree with many of you that the results of this--the Minsk 
agreements--are far from perfect. We are still awaiting the complete 
implementation of their provisions by all sides. But I remain convinced 
that the Minsk agreements are still the best chance we have to overcome 
this conflict!
    And the OSCE has been instrumental in bringing that chance about!

    Ladies and gentlemen,
    In the midst of the Cold War in the 1970s, in the face of the real 
danger of military confrontation between East and West, we put special 
emphasis on the implementation of human rights standards in the whole 
Euro-Atlantic area.
    It is my firm conviction that safeguarding human rights and 
fundamental freedoms is a crucial and direct contribution to a more 
stable international system and to comprehensive security.
    That is why we will place a special focus on the Human Dimension 
during our OSCE Chairmanship. I would like to name just a few of our 
priorities:
    <bullet>  Freedom of the media is of particular importance to us. 
Our societies should be able to communicate freely and without 
interference from state propaganda.
    <bullet>  We also need to intensify our fight against 
discrimination, racism, xenophobia and intolerance. We need to address 
it throughout Europe, including in my own country! In Germany, people's 
overwhelming readiness to help arriving refugees has recently been 
overshadowed by xenophobic assaults and demonstrations. These are 
despicable acts that we must not and will not tolerate!
    <bullet>  We will also place a special focus on combating Anti-
Semitism. I have re-
appointed Rabbi Andrew Baker as my Personal Representative on Combating 
Anti-Semitism and thank him for his valuable work in this regard. We 
will support the work of the Office for Democratic Institutions and 
Human Rights (ODIHR). And we will also host a number of events in 
Berlin on combating Anti-Semitism, building on the OSCE conferences of 
2004 and 2014.
    <bullet>  Another emphasis will be on gender equality, as well as 
on dialogue with civil society.
    <bullet>  And finally, the pressing issue of migration should 
figure more prominently and comprehensively on the OSCE's agenda. There 
is a lot of expertise that the OSCE can bring to the table: on human 
rights standards, on best practices in labor migration and on 
combatting human trafficking. We support the efforts of the Special 
Representative for Combating Trafficking in Human Beings.

    Ladies and gentlemen,
    Despite all the differences in the OSCE area, we have to work on 
real solutions to the crises and challenges we face in these turbulent 
times.
    In the long term, we will need to return to a broader dialogue on 
European security, and we should adhere to the vision of renewed arms 
control and more cooperative security in Europe. The OSCE provides a 
platform for such dialogue, and we should make use of it.

    Ladies and gentlemen,
    The OSCE is a unique organization. But my hope is that its 
principles can provide a glimmer of hope to other regions--particularly 
in the Middle East.
    Let us remember that the road to Helsinki began when the Cold War 
was at its coldest. At the start of the negotiations, who would have 
dared to hope that at the end of it, the Berlin Wall would fall?
    Of course, you can't transfer a security architecture to another 
region. But perhaps our experiences can highlight useful principles and 
processes. And maybe they can encourage the parties in the Middle East 
to live up to their responsibility and explore new paths to political 
settlements.
    This is a discussion that we started at the OSCE conference in 
Jordan last year and which we would like to build on.

    Ladies and gentlemen,
    In 1977, Ambassador Arthur J. Goldberg, Chairman of the US 
Delegation at the CSCE follow up meeting in Belgrade, held that--and I 
quote--

        ``a healing of the divisions in Europe[,] cannot be divorced 
        from progress in humanitarian matters and human rights. The 
        pursuit of human rights does not put detente in jeopardy. 
        Rather it can strengthen detente, and provide a firmer basis 
        for both security and cooperation.''

    It is in this spirit that we will pursue our Chairmanship and hope 
to make a contribution to peace and stability in the OSCE area in 2016.
    Of course, rebuilding trust will not be easy, and there will not be 
a quick fix in 2016.
    But in my view we have no alternative but to make every effort to 
do so if we want to be able to look future generations in the eye and 
hold that we did everything possible to return to peace in Europe!
    Thank you.

                                 <all>

 
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
